Department of Homeland Security
   Ofﬁce of Inspector General

  Vulnerabilities Highlight the Need for More 

     Effective Web Security Management 


                  (Redacted) 





OIG-09-101                          September 2009
                                                            Office of Inspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                                   September 10, 2009

                                         Preface

The Department of Homeland Security (DHS), Office of Inspector General, was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of DHS’ management of its
public-facing websites. It is based on interviews with selected officials and contractor
personnel, direct observations, technical security vulnerability assessments, and a review
of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all who contributed to the preparation of this report.




                                     Richard L. Skinner 

                                     Inspector General 

Table of Contents/Abbreviations 


     Executive Summary ....................................................................................................1 


     Background .................................................................................................................2 


     Results of Audit ..........................................................................................................3 

       Components Adhere to DHS Policy When Configuring Websites ........................3 

       Website Vulnerabilities Could Put DHS Data at Risk............................................4 

       Recommendations...................................................................................................7 

       Management Comments and OIG Analysis ...........................................................7 

       Improved Management Controls Could Improve Website Security.......................8 

       Recommendations.................................................................................................10 

       Management Comments and OIG Analysis .........................................................10 


Appendices
  Appendix A:      Purpose, Scope, and Methodology............................................................12 

  Appendix B:      Management Comments to the Draft Report ............................................14 

  Appendix C:      Major Contributors to this Report .............................................................16 

  Appendix D:      Report Distribution....................................................................................17 


Abbreviations
  CBP             Customs and Border Protection 

  CIO             Chief Information Officer 

  DHS             Department of Homeland Security 

  FEMA            Federal Emergency Management Agency 

  FISMA           Federal Information Security Management Act 

  FLETC           Federal Law Enforcement Training Center 

  HQ              Headquarters          

  ICE             Immigration and Customs Enforcement 

  IT              Information Technology            

  NPPD            National Protection and Programs Directorate 

  TSA             Transportation Security Administration         

  USCG            United States Coast Guard 

  USCIS           United States Citizenship and Immigration Services 

  USSS            United States Secret Service 

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                    The Department of Homeland Security’s (DHS) public-facing
                    websites present a highly accessible point of entry and attack to its
                    information resources. These websites are useful in providing
                    DHS and the public with access to information and services, but
                    must be properly configured and maintained in order to protect
                    sensitive data.

                    We evaluated nine of DHS’ most frequently visited public-facing
                    websites to determine whether DHS has implemented effective
                    security controls and practices. We examined the implementation
                    of DHS’ required configuration settings and patch management
                    practices. We also performed vulnerability assessments on these
                    websites. In addition, we reviewed documentation regarding
                    electronic authentication for web-based access according to the
                    Federal Information Security Management Act of 2002 (FISMA).

                    Overall, DHS components have followed department policy when
                    configuring operating systems supporting their websites.
                    Recommended security settings and controls were implemented
                    consistently on the servers reviewed. In addition, sites using
                    electronic authentication for web-based access were properly
                    documented according to FISMA. However, patch management
                    practices and periodic security assessments were not consistently
                    being performed, resulting in numerous critical system
                    vulnerabilities. These vulnerabilities could put DHS data at risk.
                    In addition, DHS can make improvements in managing its system
                    inventory and providing technical oversight and guidance in order
                    to evaluate the security threats to its public-facing websites.

                    We are making six recommendations to the Chief Information
                    Officer. DHS management officials concurred with our findings
                    and recommendations, and we consider them resolved. These
                    recommendations will remain open until DHS provides
                    documentation to support that the implementation of all corrective
                    actions is complete.


         Vulnerabilities Highlight the Need for More Effective Web Security Management 


                                            Page 1 

Background
                  The World Wide Web is a system for exchanging information over
                  the internet. At the most basic level, a website can be divided into
                  two principal components: web servers, which are computers that
                  make information available over the internet (provide hosting
                  services), and website applications, software used to access and
                  display the information stored on web servers and support systems.
                  Both parts require security measures designed to protect their
                  content.

                  Websites are often the most targeted and attacked hosts on an
                  organization’s network. As a result, it is essential to secure web
                  servers and the network infrastructure that supports them.
                  Effective security management should include the application of
                  effective controls upon configuration and deployment, as well as
                  ongoing maintenance through the performance of regular
                  vulnerability assessments and software updates.

                  DHS has more than 125 websites accessible by the public which
                  provide component services and communicate emergency data
                  when needed. These systems are provided as a service to the
                  public, and their accessibility is key to DHS’ mission, but this
                  accessibility can also make these sites vulnerable to attack.

                  The department’s websites are supported by a variety of server
                  operating systems, application software programs, hardware
                  platforms, and hosting locations, including DHS, other federal
                  agencies, and contractor facilities. The diversity in software,
                  hardware, physical locations, and the constantly changing content
                  of web pages creates a challenging security environment.

                  Appropriate management practices are essential to operating and
                  maintaining a secure website. Security practices entail the
                  identification of an organization’s information technology (IT)
                  assets and the development and implementation of documented
                  policies, standards, procedures, and guidelines that help to ensure
                  the confidentiality, integrity, and availability of information system
                  resources.




       Vulnerabilities Highlight the Need for More Effective Web Security Management

                                          Page 2
Results of Audit
Components Adhere to DHS Policy When Configuring Websites
                   Components consistently applied DHS policy in building and
                   deploying the servers that host their public-facing websites.
                   Components enforce strong password controls for system
                   administrators, limit shared accounts, and ensure that all
                   unnecessary services are disabled. Implementation of these
                   controls is part of a robust information security program.

                   We reviewed nine of the most frequently visited DHS websites,
                   based on published monthly statistics for December 2008. These
                   sites represent the main public information portals of DHS’
                   components: Customs and Border Protection (CBP), DHS
                   Headquarters (HQ), Federal Emergency Management Agency
                   (FEMA), Federal Law Enforcement Training Center (FLETC),
                   Immigration and Customs Enforcement (ICE), National Protection
                   and Programs Directorate (NPPD), Transportation Security
                   Administration (TSA), United States Coast Guard (USCG), and
                   United States Citizenship and Immigration Services (USCIS). We
                   evaluated the websites to determine whether security controls
                   required by DHS’ configuration guides had been implemented.
                   We tested the websites for technical vulnerabilities and reviewed
                   supporting FISMA documentation.

                   DHS publishes secure baseline configuration guides to assist
                   network security personnel in deploying IT systems throughout the
                   department. These guides outline specific security settings for
                   operating systems and applications. In addition to the application
                   of baseline configuration guide settings, some components
                   regularly test their websites for vulnerabilities.

                   All web servers tested showed evidence of strong password
                   controls for complexity, reuse, and aging. Web server
                   administrators limited the use of shared accounts, and employed
                   best practices in deactivating services that could allow attackers
                   unauthorized access, such as Telnet and File Transfer Protocol.

                   Component IT security personnel regularly performed these tests
                   on operating systems, but only a few had the tools or experience
                   testing web applications for security vulnerabilities. As website
                   content is updated or changed, existing vulnerabilities may remain




        Vulnerabilities Highlight the Need for More Effective Web Security Management

                                           Page 3
                    or new vulnerabilities can be introduced, putting the system and
                    data at risk.

                    Office of Management and Budget Memorandum M-00-13,
                    Privacy Policies and Data Collection on Federal Web Sites, limits
                    the use of tracking cookies; small bits of information collected to
                    track website use, on government websites. The results of our
                    vulnerability assessments indicated that all but one of the sites
                    reviewed disabled the use of tracking cookies.

Website Vulnerabilities Could Put DHS Data at Risk
                    Our review of DHS’ most frequently visited websites identified
                    vulnerabilities that could put department information resources at
                    risk. Insufficient security assessments of websites by component
                    security personnel could jeopardize the confidentiality, integrity,
                    and availability of data.

                    Significant Vulnerabilities Identified

                    The results of our vulnerability assessments identified




                    Assessment results of web servers showed




                              Figure 1 shows the number of critical and high
                    vulnerabilities identified by component.




         Vulnerabilities Highlight the Need for More Effective Web Security Management

                                            Page 4
Figure 1: Website and Server Vulnerabilities by Component

                         Critical Vulnerabilities            High Vulnerabilities
     Component                                                                          Total
                          Web Application                         Server




                      Servers hosting websites for

                                                                                      Our
                      assessments identified




                      Assessment results for servers hosting the




                      DHS has not effectively managed the security programs of these
                      websites by
                                                                          While
                      components’ have implemented the initial phases of good security
                      lifecycle practices for their


                                                                  Figure 2 shows examples of website
                      vulnerabilities.




           Vulnerabilities Highlight the Need for More Effective Web Security Management

                                                    Page 5
Figure 2: Vulnerabilities of Websites

                                           Vulnerabilities of Websites


                            User                                    Web Server         Content




                  Known Exploits


                            Cross site scripting
                                                             Data (Web site content)


                                        Defacing




                        Component Website Vulnerability Testing

                        TSA and USCG perform regular vulnerability assessments on their
                        websites. This practice protects DHS data and websites by
                        identifying security risks that may be introduced after the initial
                        development and deployment of the website. In addition, the
                        websites for FEMA, NPPD, and USCG contained no
                        vulnerabilities listed as critical or high, and all security patches
                        were applied. These components’ security practices, through
                        periodic assessments, patch and update policies, and documented
                        procedures, set the example of an effective defense-in-depth
                        approach to good IT systems security.




                                           Components that conduct periodic assessments
                        and perform scans of updates to websites while still in
                        development can identify and mitigate vulnerabilities before DHS
                        data and systems are at risk.




           Vulnerabilities Highlight the Need for More Effective Web Security Management

                                                    Page 6
           The SysAdmin, Audit, Network, and Security Institute, known as
           SANS, annually rates cross site scripting as the highest security
           risk associated with websites. Every week, hundreds of
           vulnerabilities are reported and actively exploited in commercially
           available and open source web applications. SANS identified that
           web application vulnerabilities account for almost half the total
           number of vulnerabilities being discovered in the past year.

           DHS Sensitive Systems Policy Directive 4300A establishes that
           even public information, such as that contained on a website,
           requires protection against erroneous manipulation or alteration.
           Components are required to manage their systems to reduce
           vulnerabilities through testing and promptly installing patches and
           critical security updates.

           Technical vulnerabilities on department websites expose them to
           defacing, interruption of services, or loss of resources. Exploits
           and attacks against websites could compromise the confidentiality,
           availability, and integrity of department data.

  Recommendations
  We recommend the Chief Information Officer (CIO):

  Recommendation #1: Require components to perform periodic security
  vulnerability assessments on their public-facing websites.

  Recommendation #2: Require components to apply security patches
  promptly to the servers supporting public-facing websites.

  Management Comments and OIG Analysis
           DHS concurs with recommendation 1. Management responded
           that they will have the DHS Security Operations Center (SOC)
           identify the applications supporting these sites as critical; and track
           the action for vulnerability scanning each quarter. In addition, the
           Office of the Chief Information Officer (OCIO) in cooperation
           with components, will work to develop a plan of action to move
           these sites to the Enterprise Data Center with the Trusted Internet
           Connection in order to provide consistent control and security
           monitoring.

           We agree the steps that DHS is taking, and plans to take, begin to
           satisfy this recommendation. We consider this recommendation
           resolved and it will remain open until DHS provides


Vulnerabilities Highlight the Need for More Effective Web Security Management

                                   Page 7
                   documentation to support that all planned corrective actions are
                   completed.

                   DHS concurs with recommendation 2. DHS plans for the SOC to
                   establish tracking of critical security patches specific to these sites
                   by April 2010.

                   We agree the steps that DHS is taking, and plans to take, begin to
                   satisfy this recommendation. We consider this recommendation
                   resolved and it will remain open until DHS provides
                   documentation to support that all planned corrective actions are
                   completed.

Improved Management Controls Could Improve Website Security

                   DHS management could improve website security through
                   guidance focused on specific threats, and by maintaining an
                   inventory of its public-facing websites. Current DHS guidance
                   does not identify the need for constant security maintenance of
                   websites. As DHS websites are updated with current data, some
                   content may contain security flaws, risking DHS data and services.

                   Furthermore, DHS management does not have an inventory of its
                   public-facing websites. While most components had knowledge of
                   their own websites, DHS does not track which are inventoried
                   under a general support system or major application. Detailed
                   guidance and improved oversight could protect DHS websites from
                   risk of service interruption and data loss.

                   DHS policy does not adequately address the risks associated with
                   or the need for specialized security programs for its 125+
                   public-facing websites. Websites and their support systems face
                   specific threats which need to be addressed beyond the current IT
                   security practices. The current policy, which only mandates
                   security assessments annually, does not clearly describe
                   requirements to assess risks associated with constantly changing
                   web content or the diverse manner in which sites are hosted.

                   Websites are designed to deliver information to the public as a
                   service and some DHS sites are updated on a weekly basis. We
                   identified sites that were updated as often as three times weekly,
                   with content that had never undergone a security review. These
                   updates constitute new code that could contain vulnerabilities, such
                   as cross site scripting and Structured Query Language injection,
                   and nullify any previous assessment. Any content change to a


        Vulnerabilities Highlight the Need for More Effective Web Security Management

                                           Page 8
           website could broaden its attack surface, and create a new
           opportunity for malicious activity.

           The availability of a website inventory, or an ability to identify
           systems’ public-facing elements, would assist DHS in managing
           and securing one of the most targeted and attacked hosts on
           organizations’ networks. An inventory should list those
           responsible and accountable for website security, as well as assist
           in identifying accreditation status of legacy systems. CBP’s
           website was not certified or accredited, although it was one of the
           top five visited sites in DHS. It was not inventoried under a
           general support system or major application. The main public web
           site for USSS is still hosted by the Treasury Department. While
           this site and its security are managed by Treasury, no formal
           agreement between DHS and Treasury was in place to ensure its
           protection.

           DHS Sensitive Systems Policy Directive 4300A establishes that
           leadership must assess risk and ensure the security of each system
           throughout its lifecycle. DHS components must conduct risk
           assessments whenever significant changes to the system
           configuration or to the operational/threat environment occur.
           Public-facing websites whose attack surfaces could be broadened
           by frequent content changes fit this definition.

           All web content updates should be scanned by security software
           for exploitable vulnerabilities; existing websites should be scanned
           frequently to identify risks. Current DHS policy establishes that
           systems should be assessed annually for security vulnerabilities,
           but in the case of constantly changing public-facing websites, this
           is not enough. Changes to websites are not identified within the
           policy as being a significant change that would require a new risk
           or security vulnerability assessment.

           The rapid growth of the popularity and number of DHS websites
           highlights the need to address specific threats with more effective
           web security management. DHS information security practices
           should include more stringent controls for websites. DHS’
           public-facing websites are at risk from attacks that could include
           defacing, manipulation, or alteration. Sophisticated attacks on
           federal websites have proven they can disrupt service and risk the
           confidentiality, integrity, and availability of services and data.




Vulnerabilities Highlight the Need for More Effective Web Security Management

                                   Page 9
  Recommendations
  We recommend the CIO:

  Recommendation #3: Clarify the department’s vulnerability assessment
  policy and guidelines to address threats specifically associated with its
  websites.

  Recommendation #4: Develop an inventory of the public-facing website
  elements of major applications and general support systems.

  Recommendation #5: Direct CBP’s CIO to ensure its public-facing
  website is certified and accredited.

  Recommendation #6: Direct USSS’ CIO to develop and implement a
  plan to move its website under DHS’ security program.

  Management Comments and OIG Analysis
           DHS concurs with recommendation 3. DHS agrees that in order to
           properly address the threats confronting the public-facing websites,
           the processes must adhere to those included within the master
           service agreement. In addition, under the direction of the SOC, all
           systems will adhere to the guidance as directed through the
           Information Security Vulnerability Messages.

           We agree the steps that DHS is taking, and plans to take, begin to
           satisfy this recommendation. We consider this recommendation
           resolved and it will remain open until DHS provides
           documentation to support that all planned corrective actions are
           completed.

           DHS concurs with recommendation 4. The OCIO has agreed to
           leverage the information in the Department’s Enterprise
           Architecture and the Trusted Agent FISMA (TAF) database to
           establish an inventory of public- facing major applications and
           support systems.

           We agree the steps that DHS is taking, and plans to take, begin to
           satisfy this recommendation. We consider this recommendation
           resolved and it will remain open until DHS provides


Vulnerabilities Highlight the Need for More Effective Web Security Management

                                  Page 10
           documentation to support that all planned corrective actions are
           completed.

           DHS concurs with recommendation 5. As part of the collaboration
           between OCIO and CBP, DHS has initiated the certification and
           accreditation process for the www.cbp.gov website in March 2009.

           We agree the steps that DHS is taking, and plans to take, begin to
           satisfy this recommendation. We consider this recommendation
           resolved and it will remain open until DHS provides
           documentation to support that all planned corrective actions are
           completed.

           DHS concurs with recommendation 6. USSS has established
           communications with the OCIO to perform this action.

           We agree the steps that DHS is taking, and plans to take, begin to
           satisfy this recommendation. We consider this recommendation
           resolved and it will remain open until DHS provides
           documentation to support that all planned corrective actions are
           completed.




Vulnerabilities Highlight the Need for More Effective Web Security Management

                                  Page 11
Appendix A
Purpose, Scope, and Methodology


                     The objective of our review was to determine whether DHS has
                     implemented effective security controls to protect its web servers
                     and website applications, and has documented electronic
                     authorization for web-based access in accordance with FISMA.
                     We interviewed selected personnel at DHS headquarters;
                     component offices, and contractor sites in Pennsylvania, Maryland,
                     and Virginia. In addition, we reviewed and evaluated DHS
                     security policies and procedures, configuration management
                     practices, and other appropriate documentation.

                     We used

                                                      Upon completion of the
                     assessments, we provided program officials with the technical
                     reports detailing the specific vulnerabilities detected and the
                     actions needed for remediation. The table below shows the
                     websites and components tested.

                                Website                    Component

                                cbp.gov                        CBP

                          interactive.dhs.gov                DHS HQ

                               fema.gov                       FEMA

                                fletc.gov                     FLETC

                                ice.gov                         ICE

                              us-cert.gov                     NPPD

                       twicprogram.tsa.dhs.gov                 TSA

                                uscg.mil                      USCG

                               uscis.gov                      USCIS


                     Note: We did not evaluate the USSS website for technical
                     vulnerabilities, as it is hosted by the Treasury.

                     We conducted this performance audit between November 2008 and
                     April 2009 according to generally accepted government auditing
                     standards. Those standards require that we plan and perform the
                     audit to obtain sufficient, appropriate evidence to provide a
                     reasonable basis for our findings and conclusions based on our


          Vulnerabilities Highlight the Need for More Effective Web Security Management

                                            Page 12
Appendix A
Purpose, Scope, and Methodology

                     audit objectives. We believe that the evidence obtained provides a 

                     reasonable basis for our findings and conclusions based on our 

                     audit objectives. Major OIG contributors to the audit are identified 

                     in Appendix C. 


                     The principal OIG points of contact for the evaluation are 

                     Frank Deffer, Assistant Inspector General, Office of Information 

                     Technology, at (202) 254-4041 and Edward G. Coleman, Director, 

                     Information Security Audit Division, at (202) 254-5444. 





          Vulnerabilities Highlight the Need for More Effective Web Security Management

                                            Page 13
Appendix B
Management Comments to the Draft Report




          Vulnerabilities Highlight the Need for More Effective Web Security Management 


                                             Page 14 

Appendix B
Management Comments




         Vulnerabilities Highlight the Need for More Effective Web Security Management 


                                            Page 15 

Appendix C
Major Contributors to this Report

                      Information Security Audit Division

                      Edward Coleman, Director
                      Mike Horton, IT Officer
                      Barbara Bartuska, Audit Manager
                      Thomas Rohrback, IT Specialist
                      David Bunning, Program and Management Clerk

                      Advanced Technology Division

                      John Molesky, IT Specialist

                      Robert Durst, Referencer




           Vulnerabilities Highlight the Need for More Effective Web Security Management

                                             Page 16
Appendix D
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Acting General Counsel
                      Executive Secretariat
                      Assistant Secretary for Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      CIO
                      Deputy CIO
                      Chief Information Security Officer
                      Director, Compliance and Oversight
                      Director, GAO/OIG Liaison Office
                      CIO Audit Liaison
                      Chief Information Security Officer Audit Manager
                      CIO, CBP
                      CIO, FEMA
                      CIO, FLETC
                      CIO, ICE
                      CIO, NPPD
                      CIO, TSA
                      CIO, USCG
                      CIO, USCIS
                      CIO, USSS

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




           Vulnerabilities Highlight the Need for More Effective Web Security Management 


                                              Page 17 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
